Department of Homeland Security
   Ofﬁce of Inspector General

            Review of Selected Personnel Practices at 
 

             FEMA's Maryland National Processing 
 

                         Service Center 
 





OIG-10-27                                         December 2009
                                                            Office (d'Ilispector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                            Homeland
                                                            Security
                           DEe 1 0 2009


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The Chairman of the House Homeland Security Committee requested that we review
several allegations by employees at the Federal Emergency Management Agency
(FEMA) Maryland National Processing Service Center (MD NPSC). Our review focused
on these allegations as well as related operational issues. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report wil result in more effective, efficient, and economical operations. We

                                       /~~. ~
express our appreciation to all of those who contributed to the preparation of this report.


                                     lfc¿hard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review ................................................................................................................4
 


     FEMA Did Not Inappropriately Shift or Eliminate MD NPSC Job Functions .............4
 

     Recommendations..........................................................................................................8
 

     Management Comments and OIG Analysis ..................................................................8
 


     The Employee Performance Management Process Should Be More Transparent ......10

     Recommendation .........................................................................................................12

     Management Comments and OIG Analysis ................................................................13


     Constantly Changing Work Schedules Have Affected Employee Morale ..................14 
 


     Low Supervisor-to-Agent Ratios and Ineffective Communication
      Have Led to Morale Problems ..................................................................................15
 

     Recommendations........................................................................................................17
 

     Management Comments and OIG Analysis ................................................................17
 


     FEMA Has Been Addressing MD NPSC Morale and Workplace Issues....................18 
 

     Recommendations........................................................................................................20 
 

     Management Comments and OIG Analysis ................................................................21
 



Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................23
 

     Appendix B:           Management Comments to the Draft Report .......................................24
 

     Appendix C:           National Processing Service Center Workflow ...................................29
 

     Appendix D:           FEMA November 28, 2007, Reply to Senator Barbara Mikulski........30
 

     Appendix E:           Conditions of Employment – Stafford Act Employee.........................32 
 

     Appendix F:           Major Contributors to This Report ......................................................35 
 

     Appendix G:           Report Distribution ..............................................................................36 
 

Table of Contents/Abbreviations 
 

Abbreviations
  EEO            Equal Employment Opportunity
  EPIMS          Enterprise Performance Information Management Section
  FEMA           Federal Emergency Management Agency
  IA             Individual Assistance
  MD NPSC        Maryland National Processing Service Center
  NEMIS          National Emergency Management Information System
  NPSC           National Processing Service Center
  Stafford Act   Robert T. Stafford Disaster Relief and Emergency Assistance Act
  TX NPSC        Texas National Processing Service Center
  VA NPSC        Virginia National Processing Service Center
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
              The Chairman of the House Homeland Security Committee requested that
              we review allegations submitted by employees at the Federal Emergency
              Management Agency’s Maryland National Processing Service Center.
              National Processing Service Centers provide centralized disaster
              assistance application services to individuals and families during
              presidentially declared disasters. Employees at the Maryland center
              alleged that the agency concentrated higher salaried positions at other
              centers, terminated employees by outsourcing operations, and
              mismanaged employee performance evaluations. Employees asserted that
              these issues undermine operational effectiveness.

              We reviewed certain events and practices at the Maryland center that led
              to employees’ perceptions of favoritism by agency headquarters toward
              other centers and complaints that managers were using employee
              performance evaluations to punish or terminate employees. Although
              management did reduce the number of employees needed at the center,
              resulting in fewer higher salaried positions there, the agency did not
              exceed its authority or act improperly. We did not find any instances
              where managers used individual performance reports for punitive reasons.
              However, the employee performance evaluation process should be more
              transparent.

              Other issues have lowered morale and increased tension between
              employees and managers. Low supervisor-to-employee ratios have
              hindered communication. Until recently, the Maryland center operated
              without fixed employee work schedules, meaning schedules changed
              every pay period. The center’s workforce consists mostly of temporary,
              excepted service employees, and the tenuous nature of their employment
              status creates constant anxiety among many.

              Morale problems at the Maryland center may be undermining operations.
              The agency acknowledges that the performance management process
              needs improvements and is refining the process, but overall it has
              responded slowly to these issues. We make seven recommendations to
              streamline the employee rating process, improve communication and
              management-employee relations, educate employees on their rights under
              excepted service appointments, and improve training programs. In its
              response to our draft report, FEMA concurred with each recommendation.

    Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                              Page 1
Background
             The mission of the Federal Emergency Management Agency (FEMA) is to
             reduce the loss of life and property and protect the Nation from all
             hazards, including natural disasters, acts of terrorism, and other manmade
             disasters. It carries out its mission by leading and supporting a
             comprehensive national emergency management system that addresses all
             aspects of preparedness, protection, response, recovery, and mitigation.

             FEMA’s Disaster Assistance Directorate Individual Assistance Branch
             serves individuals and communities affected by disasters so they can
             return to normal function with minimal suffering and disruption of
             services. Individual Assistance provides or coordinates emergency
             housing, financial, unemployment, and other public assistance for
             individuals and families. The Disaster Assistance Directorate also assists
             states, local communities, businesses, and nonprofit groups to remove
             debris, restore and rebuild public systems and facilities, and comply with
             emergency protective measures.

             In 1994, FEMA opened full-service National Processing Service Centers
             (NPSC) in Denton, TX, and Winchester, VA. In 1995, FEMA opened a
             National Teleregistration Center in Trujillo Alto, PR, to provide Spanish-
             language support to disaster applicants. In 1997, FEMA opened another
             NPSC for registration intake activities in Hyattsville, MD, and full-service
             applicant processing began by the end of the year. From 1997 to 2008,
             FEMA operated the Maryland, Texas, and Virginia NPSCs and the
             teleregistration center in Puerto Rico. FEMA closed the teleregistration
             center in 2008; the other three NPSCs remain operational.

             NPSCs provide direct assistance to victims affected by natural disasters
             through a combination of telephone- and Internet-based registration, help
             line, and application processing services. For example, in 2007, NPSC
             employees completed approximately 260,000 disaster assistance
             registrations and 110,000 on-site inspections of damaged property, mailed
             more than 6.7 million applicant letters, and awarded more than $2.3 billion
             in disaster assistance to individuals and families.

             Disaster victims contact an NPSC to begin the application process or
             inquire about the status of an existing application. Human services
             specialists, also known as agents, answer calls and provide registration and
             helpline services. The National Emergency Management Information
             System (NEMIS) automatically grants eligibility to about 90% of
             applicants. Agents make eligibility determinations for applications that
             cannot be processed automatically; those applicants must provide
             additional documentation or information (see appendix C).


   Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                             Page 2
          Most NPSC employees are temporary, excepted service personnel hired
          under the authority of the Robert T. Stafford Disaster Relief and
          Emergency Assistance Act (Stafford Act). FEMA’s Employee Handbook
          and various position descriptions describe these personnel as Cadre of On-
          Call Response and Recovery (CORE) employees. NPSCs typically
          employ about 1,600 staff and add up to 1,000 additional temporary duty
          personnel when severe or multiple disasters occur. FEMA also has a
          memorandum of agreement with the Internal Revenue Service to add up to
          300 agents from its call centers, if necessary. During the 2005 hurricane
          season, when seven major hurricanes, including hurricanes Katrina and
          Rita, occurred, FEMA expanded NPSC staff to 13,000 personnel, using
          temporary call centers and contracted staff. FEMA releases Stafford Act
          temporary appointment staff to inactive, nonpay status when disaster
          assistance activity diminishes but may recall them to employment. In
          November 2006, when applicant processing activity in response to
          hurricanes Katrina and Rita decreased, FEMA released 600 agents serving
          across the NPSC-wide enterprise.

          In 2002, FEMA determined that the NPSCs had become more interrelated
          and interdependent, and it began a large reorganization to ensure more
          uniformity in structure, streamline operations and procedures, and
          eliminate duplicate functions. In 2005, the FEMA Under Secretary
          approved a plan to combine and centralize many NPSC functions carried
          out at each of the four service centers. Centralization and reorganization
          of the NPSCs was phased in over several years. As a result, FEMA
          shifted job functions and work units from the Maryland and Puerto Rico
          NPSCs to the Denton, TX, and Winchester, VA, NPSCs and to FEMA
          headquarters in Washington, DC. The Maryland and Puerto Rico NPSCs
          operated only as call and processing centers, with applicant services and
          minimal support staff. In 2007, to reduce MD NPSC office rental, facility,
          and security costs, FEMA announced plans to outsource mailroom
          operations and moved center operations to a smaller, nearby building in
          Hyattsville, MD. In December 2008, following a 6-month closure due to
          building safety issues, FEMA decided to close the Puerto Rico center.
          Currently, the three FEMA NPSCs are located in Hyattsville, MD;
          Denton, TX; and Winchester, VA.

          Following the NPSC reorganization, the 2006 release of Stafford Act
          employees, and the announcement of plans to outsource mailroom
          operations, MD NPSC employees submitted complaints to FEMA’s Equal
          Opportunity Office about the workplace and the loss of positions at the
          center. During 2007, center employees contacted Senator Barbara
          Mikulski and other elected representatives regarding these issues. FEMA
          subsequently responded to a congressional inquiry (see appendix D) and
          the letter highlighted actions taken in response to employee complaints at
          that time. Employees also raised these issues and discussed their

Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 3
              discontent and low morale during an all-hands meeting with senior FEMA
              leadership. Employees cited the same issues when they contacted
              Chairman Bennie Thompson, which led to this review.


Results of Review
     The Chairman of the House Homeland Security Committee requested that we
     review allegations by employees at FEMA’s MD NPSC that FEMA concentrated
     higher salaried positions at other NPSCs, terminated employees in order to
     outsource operations, and mismanaged employee performance evaluations.
     Employees asserted that these issues have undermined operational effectiveness.

     FEMA management reduced the number of employees needed at the center,
     resulting in fewer higher salaried positions there, but did not exceed its authority
     or act improperly. We did not find that managers were using performance reports
     for punitive reasons, but the performance management process should be more
     transparent.

     These and other issues are contributing to low morale and increased tension
     between employees and managers. FEMA has responded slowly to these
     challenges. We make several recommendations to improve the employee rating
     process, improve communication and management-employee relations, better
     educate employees on their rights under excepted service appointments, and
     improve training programs.

     FEMA Did Not Inappropriately Shift or Eliminate MD NPSC Job
     Functions
              From 2005 to 2008, FEMA centralized operations at four NPSCs and also
              contracted for MD NPSC mailroom operations, which transferred or
              eliminated 112 of 389 positions at the MD NPSC. During this time,
              FEMA also selected 600 temporary, excepted service employees
              employed at three centers for release. MD NPSC employees alleged that
              FEMA unfairly targeted the MD NPSC in favor of another center;
              terminated employees; unwisely reduced functions and eliminated higher
              graded positions, which restricted opportunities for advancement; and did
              not follow FEMA’s Equal Opportunity Employment Plan. Some MD
              NPSC employees believe that FEMA unfairly abolished mailroom
              positions occupied by minority employees because it did not conduct a
              cost/benefit analysis. Despite employee allegations, FEMA did not
              improperly terminate employees or transfer higher salaried positions from
              the MD NPSC, and it did conduct a cost/benefit analysis of mailroom
              operations before electing to outsource them.


    Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                              Page 4
                   Reorganization of the NPSC Enterprise

                   In 2002, FEMA determined that NPSC work processes had
                   become more interrelated and interdependent, and began to
                   reorganize to ensure more uniformity in structure, streamline
                   operations and procedures, and eliminate duplicate functions. That
                   effort culminated in the National Processing Service Center
                   Reorganization Business Case, which was approved by the FEMA
                   Under Secretary. In April 2005, FEMA implemented the plan.
                   Between 2005 and 2008, it eliminated or shifted NPSC functions
                   and centralized them in enterprise-wide operational units.
                   Specifically, FEMA shifted job functions and work units from the
                   Maryland and Puerto Rico NPSCs to the Denton, TX, and
                   Winchester, VA, NPSCs, and to FEMA headquarters. The
                   Maryland and Puerto Rico NPSCs would operate only as call and
                   processing centers, with applicant services and minimal support
                   staff. The VA NPSC branch chief assumed management oversight
                   of the Maryland center. FEMA reassigned the following
                   organizational units:

                       �	 The Enterprise Processing Services Section, National
                          Coordination Center, to the VA NPSC;
                       �	 The Enterprise Technical Assistance Group to the National
                          Coordination Team at the VA NPSC, with these employees
                          located within the MD NPSC Training Unit;
                       �	 The Correspondence Unit to FEMA headquarters;
                       �	 The Enterprise Processing Analysis Section, Queue 

                          Management, to the TX NPSC; 

                       �	 The Enterprise Processing Analysis Section, Quality
                          Assurance/Call Monitoring, to the TX NPSC;
                       �	 The Enterprise Processing Analysis Section, Process
                          Improvement, to the VA NPSC;
                       �	 The Enterprise Processing Analysis Section, Individual
                          Assistance Web Design, to the VA NPSC; and
                       �	 The Enterprise Processing Analysis Section, Performance
                          Standards Development, to the TX NPSC.

                   The reorganization was carried out to help FEMA streamline
                   management, create more uniformity, and eliminate duplicate
                   functions. Employees correctly pointed out that it affected the MD
                   NPSC the most, and this had become a central issue in employee
                   complaints and workplace dissatisfaction. The NPSC
                   reorganization accounted for 99 of the 112 positions transferred or
                   eliminated at the MD NPSC, including 48 GS-11 or higher
                   positions. Before terminating their employment, FEMA gave
                   employees in those positions the opportunity to relocate to another
Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 5
                         NPSC, or move to another position for which they were qualified.
                         Among the 99 MD NPSC affected employees:

                             �	 Of 48 Enterprise Processing Analysis Section employees,
                                10 relocated to other NPSCs, 17 shifted into other positions
                                at MD NPSC, and 21 declined employment options
                                presented to them and were terminated; 1
                             �	 18 employees in the Correspondence Unit moved to FEMA
                                headquarters in Washington, DC; and
                             �	 33 employees resigned.

                         The 2006 Release of Stafford Act Employees to Nonpay Status

                         Under the authority of the Stafford Act, FEMA hires human
                         service specialists or agents as temporary, excepted service
                         personnel. Agents sign Conditions of Employment to affirm their
                         understanding that appointments are temporary (see appendix E).
                         The agent’s Conditions of Employment form and employee
                         handbook states that release from service may occur because of
                         workload fluctuations. Agents are advised that selection for
                         release from service will be based on one or more factors,
                         including performance, job function, work schedule availability,
                         most recent hire date, and production levels.

                         In late 2006, FEMA prepared to release Stafford Act employees it
                         no longer needed because of a decrease in applicant registration
                         and processing activity. In preparation for this release,
                         headquarters transmitted agent performance, job function,
                         availability, and individual production rate data from the
                         Enterprise Performance Information Management Section
                         (EPIMS) database to managers at each NPSC. Center managers
                         used this data to determine who to release. In November 2006,
                         NPSC operations released 600 agents across the enterprise, of
                         whom 183 worked at the MD NPSC. This action was not related
                         to the 99 positions transferred or eliminated as a result of the
                         NPSC reorganization discussed above.

                         Employees alleged that up to 20 of the 183 MD NPSC agents
                         selected for release had low individual production rates only
                         because their work assignments had been under special project
                         work queues such as special applicant outreach or processing,
                         which they did not receive credit for in their production rate totals.
                         Although we were unable to confirm that number and whether

1
 The TX NPSC eliminated seven positions, while the Puerto Rico NPSC eliminated two positions. The
VA NPSC did not eliminate any positions.

      Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                                Page 6
                   these cases were isolated or systemic in nature, we did confirm that
                   at the time of the release, certain work queue assignments did not
                   generate accurate production counts. Employees still perceive that
                   the process was unfair and that management did not properly
                   follow its own release criteria. Staff who remain concerned about
                   their potential release believe that they are not getting sufficient
                   credit for special projects completed outside of normal work
                   queues. For this reason, agents are more likely to pick the easiest
                   cases to review to ensure that their production rates remain high.

                   Employees said that their temporary status affects morale, owing to
                   confusion or uncertainty about their appointment term, release
                   from service, and employment status in relation to the federal civil
                   service. Despite having signed the form acknowledging their
                   employment status, employees reported still being confused about
                   what their status means. For instance, some employees are
                   uncertain whether their Stafford Act appointment is included in a
                   calculation of federal employment time in service. Some
                   employees are confused about the differences in permanent
                   termination from employment and release to nonpay status.
                   FEMA may recall individuals in nonpay status to employment.
                   Some employees stated that they did not know that their Stafford
                   Act appointment does not count as time-in-service when applying
                   for a federal civil service position.

                   Outsourcing the MD NPSC Mailroom Operations

                   Some MD NPSC employees asserted that FEMA unfairly
                   abolished mailroom positions occupied by minority employees
                   because it did not conduct a cost/benefit analysis. In fact, in 2008
                   FEMA conducted an analysis in accordance with the Federal
                   Activities Inventory Reform Act of 1998 (FAIR Act). FEMA
                   projected that it could save an average of $1,693,000 per year by
                   contracting with the private sector for its MD NPSC mailroom
                   operations. FEMA gave the 13 MD NPSC mailroom employees
                   the opportunity to move to other positions at the center or transfer
                   to another NPSC. Nine employees transferred to other positions at
                   the center and four employees resigned.

                   The FAIR Act requires that federal agencies submit to the Office
                   of Management and Budget (OMB) an annual inventory of
                   functions that are not inherently governmental or commercial
                   activities. OMB’s Circular A-76 outlines procedures to conduct
                   cost comparison studies to determine whether such functions
                   should be performed by federal employees or the private sector.
                   After completing the cost study, FEMA used a competitive process

Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 7
                   to select a contractor to provide centralized mail-related services
                   for the NPSC enterprise.

                   Soon after the announcement of the plans to outsource mailroom
                   operations, MD NPSC employees complained to FEMA’s Equal
                   Employment Opportunity (EEO) Office that closing the mailroom
                   would negatively impact minority employees. The EEO Office
                   determined that FEMA’s actions were not discriminatory.


          Recommendations
                   We recommend that the Administrator, Federal Emergency
                   Management Agency:

                   Recommendation #1: Develop a process to identify and track
                   agents’ special projects and other work assignments and generate
                   appropriate production data.

                   Recommendation #2: Review its briefing process for new
                   employees hired pursuant to the Stafford Act to ensure that FEMA
                   is clearly articulating differences from the federal service and
                   policies related to benefits and retirement, release to nonpay status,
                   termination of employment, and qualification for civil service
                   merit hiring.

          Management Comments and OIG Analysis
                   FEMA provided written comments on our draft report. We
                   evaluated these comments and have made changes where we
                   deemed appropriate. Below is a summary of FEMA’s written
                   response to the report’s first recommendation and our analysis. A
                   copy of FEMA’s complete response is included as appendix B.

                   FEMA’s Comments to Recommendation #1:

                   FEMA concurred with the recommendation. In its response,
                   FEMA stated that the National Processing Service Center's
                   (NPSC) Performance Standards Analysis Department continually
                   works to enhance the Individual Performance Report (IPR) by
                   including special project data in the Production Key Performance
                   Indicators (KPI). The criteria for establishing a production
                   measurement for any "Special Projects" requires that the work
                   activity be of adequate volume and/or duration to allow sample
                   data to be confirmed in order to establish a viable measurement.


Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 8
                   For this reason, it is not always possible to include every special
                   project in the production reports.

                   During the last eighteen months, FEMA has been modifying IPR
                   measurements, including a new measurement to capture agents'
                   time spent in "ready state for calls" as well as all "talk time" in
                   order to give employees credit for being in an available mode
                   while assigned to the call center. FEMA also reduced the "weight"
                   assigned to the Production KPI from 40% to 20% to increase focus
                   on the Quality KPI.

                   Beginning October 1, 2009, additional work functions, previously
                   identified as special projects, were tracked and incorporated into
                   the employees' production data on the IPR (e.g. Indexing and
                   Flood Plain mapping). In addition, the development of the
                   Decision-based Routing measurement and the ability to capture
                   cases that were reviewed and then placed on "policy hold" provide
                   for a more complete picture of the employees' daily
                   accomplishments on the IPR.

                   OIG Analysis:

                   We concur with FEMA’s response.

                   This recommendation is Resolved – Closed.

                   FEMA’s Comments to Recommendation #2:

                   FEMA concurred with the recommendation. FEMA responded
                   that its Disaster Assistance Directorate and Human Capital
                   Division (HCD) are coordinating the need to include more
                   information about Stafford Act appointments and the differences
                   and similarities with civil service appointments. FEMA will
                   update the NPSC Employee Handbook and information posted on
                   the website to include policies related to benefits and retirement,
                   release to non-pay status, termination of employment, and
                   qualifications for civil service merit hiring.

                   OIG Analysis:

                   We concur with FEMA’s response. In its action plan, FEMA
                   should note when it updated the employee handbook and identify
                   new information it added to the handbook.

                   This recommendation is Resolved – Open.


Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 9
 The Employee Performance Management Process Should Be 

 More Transparent 

          In 2007, as part of the NPSC reorganization plan, FEMA centralized its
          employee performance management system. Employees alleged that
          FEMA has mismanaged the system—specifically, individual performance
          reports and quality control assessments—and that the system is unfair.
          Despite allegations, FEMA has not mismanaged the system, and we could
          not confirm any instances where managers tainted daily employee
          performance assessments to punish employees. However, the subjective
          nature of the quality control assessments and the appeals process has
          brought about employees’ lack of confidence in the system, and
          undermined its utility. To be more helpful to employees and managers,
          the system should provide for assessments that are less subjective, and an
          appeals process that is more flexible and timely.

          The individual performance reports and quality control assessments are
          intended to capture daily performance data, measure the quality of
          assistance provided to disaster assistance applicants and support remedial
          training and mentoring. Employees alleged that the performance
          management system, conducted by staff located at another center, does not
          emphasize direct and timely feedback or learning from one’s mistakes.
          Agents and some supervisors contend that the system is punitive and low
          production may lead to release. Moreover, employees contend that the
          quality control assessments and individual performance reports do not
          accurately capture performance, and that scoring is subjective or unfair.
          Some agents said that the criteria on which individual performance reports
          are based do not allow sufficient time to serve customers, and that
          pressure creates processing errors and poor customer service. Employees
          also alleged that there is no timely and transparent method to appeal
          individual performance report and quality control assessment scores, and
          should an employee obtain a favorable appeal, there are no assurances that
          management will adjust appealed scores so the employee is not penalized.

          The NPSC reorganization gave the TX NPSC responsibility for managing
          EPIMS, which oversees individual performance report and quality control
          assessment standards and analysis for the entire NPSC enterprise. EPIMS
          creates and delivers on average 625 individual performance reports daily
          to agents across the enterprise. Managers said the individual performance
          report captures daily performance data necessary to evaluate each agent.
          Managers evaluate agents on how they conduct telephone interviews,
          complete initial disaster assistance registration procedures, process claims
          and requests for disaster assistance, and provide information to applicants
          and the public. Services delivered by agents fall primarily into one of
          three processing functions or queues: registration intake, help line, and
          casework. The individual performance report measures work queue

Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 


                                          Page 10

          performance according to specific performance standards in the following
          categories: quality, availability, after-call work, production rate efficiency,
          and adherence to “handle time” limits—the total talk time per transaction
          or the after-call case processing time.

          Quality control assessments measure the effectiveness of assistance
          provided to disaster assistance applicants. EPIMS quality control
          specialists at the TX NPSC monitor selected registration intake telephone
          conversations and the agent’s computer screen to verify data entry. Based
          on their assessment of an agent’s performance, the specialists may enter an
          assessment score of up to 100 points. The goal of EPIMS is to score five
          of an agent’s calls per pay period. However, due to resource limitations,
          quality control specialists complete only two or three assessments per
          agent per pay period. The department tends to monitor recently hired
          agents more.

          The quality control specialists score calls of 80 points or above as
          “successful” when the agent performs all mandatory registration intake
          requirements, correctly answers questions from the caller, resolves
          problems, uses resources appropriately, and provides accurate information
          to the applicant and public. Specialists may determine that a call is
          “unsuccessful” when the agent does not verify or complete one or more
          mandatory items during the call.

          An agent may appeal his or her score to their supervisor within 5 days.
          Given the agent’s daily work duties, tight timeframes, and the time
          required to prepare an appeal, we question whether 5 days is sufficient for
          filing an appeal.

          When a supervisor concurs with an agent’s appeal, the appeal is forwarded
          to the Quality Control department and an appeal board. The appeal board
          consists of one member of the Quality Control department not involved
          with the original assessment and two program specialists from the NPSC
          Applicant Processing Services department. Since the calls are not
          recorded, appeals often are a matter of the agent’s word against that of the
          quality control specialist.

          The appeal board frequently overturns quality control specialists’ scores.
          From October 2007 through May 2008, EPIMS completed 50,150 agent
          quality reviews. Of those reviews, 46,024 or 92% received a perfect score
          of 100 points. During this period, employees appealed 1,162 scores (2%),
          and the board granted 338 appeals. Although employees do not often
          appeal their scores, they and first-line supervisors perceive that scoring is
          inaccurate, which undermines their confidence in the evaluation systems,
          as does the fact that the appeal board overturned and changed 29% of the
          appealed scores.

Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 11
          EPIMS managers said that they continue to examine and refine procedures
          and metrics to eliminate problems. Managers periodically review the
          quality control and individual performance report scoring processes and
          the expected handle times for casework. They have adjusted the quality
          control and individual performance report metrics, as well as data
          collection, scoring, and appeal processes. Managers have also revised
          quality control scoring guidelines, and they regularly select sample cases
          to calibrate quality control specialists’ scoring to reduce subjectivity
          among the staff. EPIMS managers meet with quality control specialists to
          review all overturned appeals and, when appropriate, they conduct audits
          on other quality control review cases similar to those overturned at appeal.
          There is consensus among NPSC supervisors and agents that the initial
          negativity surrounding the performance management system has
          decreased as the metrics have been refined and as agents become more
          familiar with the process. However, managers should periodically consult
          with agents and their supervisors about potential refinements to the quality
          control and individual performance report processes.

          In 2009, FEMA plans to begin recording all quality control assessment
          calls. This would be a major step toward making the quality control
          process more transparent. It would eliminate the need to conduct real-time
          quality control reviews because the reviews can be conducted later. Since
          there is a plan to record calls, quality control specialists can apply more
          fact-based assessments and less subjectivity to their analyses of agent
          performance. In addition, an agent’s recorded quality control review call
          will be saved, which will allow a third party to assess the call and score
          during the appeal process. This should help reduce disputes over scores,
          as well as the time required to prepare and process appeals. Recorded
          calls will also allow more precise feedback to agents and can be used for
          mentoring and training.

          Recommendation
                   We recommend that the Administrator, Federal Emergency
                   Management Agency:

                   Recommendation #3: Establish a procedure to solicit suggestions
                   from agents, managers, and specialists on possible refinements to
                   the individual performance review and quality control processes.




Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 12
          Management Comments and OIG Analysis

                   FEMA’s Comments to Recommendation #3:

                   FEMA concurred with the recommendation. In its response,
                   FEMA stated that the NPSC's Enterprise Performance Information
                   Management Section, which is responsible for the Quality Control
                   (QC) and Individual Performance Report, does reach out to the
                   NPSCs to solicit feedback and recommendations, but will increase
                   these outreach efforts as a result of this recommendation. The
                   section hosts bi-weekly meetings with Applicant Services Section
                   managers from each NPSC to solicit recommendations for Quality
                   Control changes and Individual Performance Reports refinements.

                   In June 2009, FEMA conducted a focus study group to capture
                   suggestions for improving the IPR and QC processes. FEMA is
                   assessing the feasibility of the requested changes. During July
                   2009, the Quality Control Department coordinated several focus
                   group sessions to receive additional feedback from Applicant
                   Services employees on the Rental Recertification process. That
                   feedback resulted in enterprise workshops to improve the
                   effectiveness and efficiency of Recertification processing
                   guidelines.

                   The Performance Standards Analysis and Quality Control
                   Departments plan follow-up surveys throughout 2010 and will
                   continue to include opportunities for agents, managers, and
                   specialists to provide feedback. They will publish the information
                   received from participants of surveys, work shops, training, etc.
                   and make the information available to all enterprise staff to ensure
                   planned actions/responses are communicated.

                   OIG Analysis:

                   We concur with FEMA’s response.

                   This recommendation is Resolved – Closed.




Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 


                                          Page 13 

 Constantly Changing Work Schedules Have Affected Employee 

 Morale 

          Inconsistent practices across the three NPSCs regarding agents’ work
          schedules and shift assignments have affected morale at the MD NPSC.
          Different approaches to work schedules have also challenged managers to
          meet customer service requirements during peak demand periods, such as
          hurricane season or when call volume surges in the late afternoon or early
          morning. MD NPSC employees have been disgruntled concerning
          constant work shifts or schedule changes and feel that managers have
          given preferential treatment to employees working at other NPSCs. Only
          25% of the MD NPSC employees who responded to the 2008 Work
          Climate Survey, described on page 19, felt that management assigned
          work hours equitably. Some employees at other centers have not had a
          shift or schedule change throughout their entire period of employment and
          want an opportunity to move to a different schedule.

          Managers said that ensuring that all work shifts and schedules across the
          NPSC enterprise are staffed sufficiently is a constant challenge. The
          number of staff required to meet NPSC customer service demands can
          change quickly depending on the amount of disaster activity. For this
          reason, as a condition of employment, agents agree to be available to work
          schedules and temporary geographical assignments based on the needs of
          the agency, and to be available for service with 24 to 48 hours’ notice.

          The Enterprise Contact Center Telecommunications Section in Denton,
          TX, forecasts the applicant services workload for the NPSC enterprise.
          Within the center, the Enterprise Agent Coordination Team is responsible
          for forecasting and scheduling caller and case processing queue
          requirements to ensure sufficient staff coverage at all NPSCs. It
          determines daily and intraday workloads, call and case processing loads,
          and staffing requirements for each facility.

          MD NPSC employees have felt disadvantaged with regard to scheduling,
          knowing that the TX and VA NPSCs were using very manageable fixed
          weekly schedules and shift assignments. The MD NPSC was changing
          agent work shifts and weekly schedules whenever the Coordination Team
          issued a new set of shifts and schedules. MD NPSC managers explained
          that they did this because the early morning and late afternoon shifts are
          hard to staff, and there are insufficient volunteers to permanently assign
          agents to these shifts. Employees do not volunteer for these shifts because
          public transportation is not available at these hours. Frequently changing
          schedules frustrate employees because they must adjust commuting
          schedules, daycare services, and other personal activities.



Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 14
          In May 2009, FEMA implemented an enterprise-wide 90-day fixed
          scheduling process for all agents, known as shift bids. This approach
          permits employees to bid for a set weekly schedule and shift start time
          every 90 days. Managers award shift bids based on employees’ time in
          service. Managers estimate that 80% of the Applicant Services staff now
          have a 90-day fixed work schedule. The remaining staff works flexible
          schedules, based on seniority, which may shift weekly as operational
          needs dictate. The new schedule eliminates the need for managers to
          produce new schedules every few weeks and rotate daily shifts and work
          assignments during weekends. Managers estimate that the new plan gives
          weekends off to 46% of the staff, and all staff have at least one weekend
          day off.

          Managers expect these scheduling adjustments to partially address agent
          complaints regarding scheduling and to improve morale. The shift bid
          concept should improve the work environment at the MD NPSC as well as
          the entire NPSC enterprise. FEMA plans to assess the benefits of the 90­
          day fixed shift scheduling process implemented in May 2009 and modify
          it as necessary to maintain uniform and stable shift assignments across the
          NPSC enterprise.

 Low Supervisor-to-Agent Ratios and Ineffective Communication
 Have Led to Morale Problems
          Low supervisor-to-agent ratios, as many as 1 to 80 during peak disaster
          periods, and ineffective communication by first-line and midlevel managers
          have strained relationships with employees. Agents expressed concern that
          their supervisors do not manage and communicate effectively because of the
          number of employees each is assigned. This has, at times, escalated into
          employee charges of supervisory harassment or intimidation, and has
          contributed to an atmosphere of tension and distrust at the MD NPSC.

          Supervisory human services specialists supervise agents handling core
          applicant processing functions, develop and adjust work schedules, and
          perform administrative and personnel management functions. When fully
          staffed, 56 supervisory human services specialists oversee 850 agents across
          the three NPSCs. However, because of the geographic distribution of
          supervisors, weekly schedules, leave, unfilled supervisory positions, and
          other factors, supervisors typically manage 25 to 35 agents per shift.
          During peak disaster periods of up to 2 months or more, such as hurricane
          season, one supervisor may be responsible for up to 80 agents per shift.
          Each NPSC needs a proportionate number of experienced supervisors to
          support agents helping disaster victims. Supervisors said that providing
          adequate support to large teams, particularly ensuring that agents are aware
          of and follow applicant processing procedures and policies, is difficult.


Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 15
          Although 55% of the MD NPSC respondents indicated in the 2008 climate
          survey that they think positively of their supervisor’s performance, agents
          and supervisors told us that supervisors are challenged by having such a
          wide span of control. Many MD NPSC managers and supervisors were
          once agents, and agents who earn promotions usually possess good
          technical skills and knowledge of NPSC core functions. Nevertheless,
          supervisors also need leadership experience and managerial training.

          According to managers and agents, the work environment at the MD
          NPSC is very intense during disasters. Policy or procedural changes are
          often necessary, which require that agents receive timely information
          about operational changes. Supervisors and agents are under great
          pressure to deliver services to victims, which exacerbates the tension
          between them. As the number of staff to supervise grows and supervisors
          are spread too thinly, supervisors struggle to oversee the agents’ work.
          We noted that:

              �	 Supervisors spend less time supporting and mentoring each agent.
                 Agents want supervisors to be available to them more often during
                 their work shifts, to spend more time with them individually, and
                 to address workplace issues more quickly. However, supervisors
                 communicate less frequently and less effectively with each agent.
                 This has led to friction or breakdowns in communication between
                 agents and supervisors.

              �	 Supervisors have less time to keep agents abreast of policy and
                 operational information during daily preshift meetings, and agents
                 attribute some of their processing or casework errors to poor
                 communication of operational and policy changes.

              �	 In the absence of adequate supervision and communication,
                 employees believe the quality of registration intake, customer
                 helpline service, or casework processing suffers.

              �	 Supervisors spend less time following up with agents whose
                 production or quality of service is poor, or addressing poor quality
                 control or individual performance reports scores.

              �	 Employees lack confidence that supervisors take the time to
                 forward or follow up on their complaints to management, which
                 results in complaints submitted to the FEMA EEO Office instead.

          FEMA is aware that many NPSC supervisors have not had formal training
          in many managerial skill areas, and would benefit from a comprehensive
          management, communication, and leadership training program. Under the
          direction of NPSC Operations in FEMA headquarters, the TX NPSC

Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 16
          training unit has established a standard supervisory curriculum to support
          the development of supervisory skills. During 2009, all supervisors are
          scheduled for leadership, EEO, and communication training. As part of
          this initiative, FEMA should establish individual training plans for
          supervisors to set goals and track progress against their goals.

          Recommendations
                   We recommend that the Administrator, Federal Emergency
                   Management Agency:

                   Recommendation #4: Establish a limit for how many agents may
                   be assigned to one supervisor, including during peak operations,
                   and if necessary, hire additional supervisors to increase the ratio.

                   Recommendation #5: Establish an individual training plan for all
                   NPSC managers and supervisors and ensure that training goals and
                   progress are tracked and recorded.

          Management Comments and OIG Analysis

                   FEMA’s Comments to Recommendation #4:

                   FEMA concurred with the recommendation. In its response,
                   FEMA emphasized that it typically does not have a need for a
                   greater supervisor to employee ratio during most years. FEMA has
                   to increase the number of supervisors only when it augments
                   staffing by hiring additional employees in the NPSCs. When
                   necessary, the NPSCs may hire additional contract staff, who have
                   contract supervisors and are managed through the contract's
                   Contracting Officer's Technical Representative. FEMA intends to
                   continue this practice as needed.

                   FEMA also explained that just prior to receiving our draft report,
                   the NPSCs adjusted their employee to supervisor ratio baseline
                   from 30:1 to 25:1. In addition, each NPSC has hired a number of
                   CORE supervisors to augment the employee to supervisor ratio.
                   Currently, all three NPSCs have a 20:1 ratio or smaller. In larger
                   disasters, FEMA intends to limit the employee to supervisor ratio
                   to 50 employees during large disasters. FEMA will support the
                   supervisors by providing subject matter experts to support
                   oversight of the employees.




Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 


                                          Page 17 

                   OIG Analysis:

                   We concur with FEMA’s response.

                   This recommendation is Resolved – Closed.

                   FEMA’s Comments to Recommendation #5:

                   FEMA concurred with the recommendation. In its response,
                   FEMA stated that the NPSC Enterprise Training Department has
                   created a comprehensive Supervisor Development Training
                   curriculum for all Applicant Services supervisors. FEMA has
                   developed training course catalogs to help supervisors and staff
                   obtain appropriate professional development training. Managers
                   and supervisors can use the catalogs in developing their Individual
                   Development Plan (IDP) training goals and objectives and select
                   the courses they need to complete their goals.

                   FEMA is enhancing its Enterprise Personnel Database System (E­
                   PDS). The system will include the ability to enter, track, and
                   report IDPs that will include training requirements. Managers,
                   supervisors, and individuals will be able to track their IDP
                   achievements and accomplishments. FEMA expects to implement
                   the E-PDS by June 30, 2010. It will establish IDPs with clearly
                   determined goals and well-developed training plans for meeting
                   goals.

                   OIG Analysis:

                   We concur with FEMA’s response. In its action plan, FEMA
                   should apprise the OIG of its progress in launching the E-PDS and
                   establishing IDPs.

                   This recommendation is Resolved – Open.


 FEMA Has Been Addressing MD NPSC Morale and Workplace
 Issues
          In 2008, FEMA offered MD NPSC employees the opportunity to voice
          their concerns through a survey, and it has taken several actions to address
          those concerns. For example, as previously described, refinements to the
          individual performance report and quality control processes are ongoing,
          and additional changes (such as the plan to record calls) have been
          approved. FEMA has conducted all-hands meetings and work climate
          surveys. In addition, FEMA expanded its employee award and
Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 18
          recognition programs to include recognition for superior individual
          performance report results, special project participation, and applicant
          services functions. Management implemented the employee shift bid
          process to provide more regularity and stability to schedules and work
          shifts. It also developed a supervisory training curriculum, with an
          emphasis on leadership and communication skills.

                   The 2008 Work Climate Survey

                   In May 2008, NPSC operations leaders held an all-hands meeting
                   at the MD NPSC to hear employees’ concerns about their work
                   environment. Among many topics, employees cited issues that
                   included negative sentiments about center operations, the
                   performance management system, and opportunities for
                   advancement. In July 2008, management conducted a Work
                   Climate Survey to assess staff perceptions and prioritize aspects of
                   the workplace that it needed to address. In August 2008,
                   management published the survey results. However, MD NPSC
                   managers have neither involved center employees in formulating
                   actions to implement nor kept them informed of their efforts to
                   address issues, which were among the survey’s primary goals.

                   The NPSC Customer Satisfaction Analysis Section in Denton, TX,
                   developed the survey, which it patterned closely after a survey of
                   TX NPSC employees in April 2008. FEMA distributed 282
                   surveys to MD NPSC employees, and employees returned 180
                   surveys. Three categories in the survey received a positive
                   response of 80% or more: including training, physical work
                   environment, and relationships with coworkers.

                   The survey results identified 6 of 10 categories where the rating
                   indicated either “serious concern” (51% to 65% positive rating) or
                   a “need for immediate attention”(less than 50% positive rating):

                        �    Overall job satisfaction (63% positive rating) 

                        �    Effectiveness of communication (51%) 

                        �    Commitment to quality (49%) 

                        �    Confidence in leadership (45%) 

                        �    Performance management (37%) 

                        �
   Recognition and awards (22%) 


                   Survey responses to questions in the 10 categories pointed to
                   several specific issues “in need of immediate attention”:

                        � Morale (41% positive rating)
                        �
 Job security (19%)
Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 
 


                                           Page 19
 

                        �	   Work schedules (25%)
                        �	   Confidence in the IPR as an effective tool (24%)
                        �	   Promotional opportunities (24%)
                        �	   Effective communication regarding workforce changes
                             (27%)

                   Both the Texas and Maryland NPSC 2008 Work Climate Survey
                   recommendations and action plans cite improving organizational
                   performance and employee morale as goals for follow-up action.
                   In response to its survey, TX NPSC managers convened employee
                   focus groups and created Change Teams composed of a wide range
                   of employees. Managers asked the teams to propose actions to
                   address immediate priorities and deadlines for completing them.
                   The MD NPSC did not organize similar teams, nor did it undertake
                   the action plan produced by the Customer Satisfaction Analysis
                   Section.

                   While we recognize that FEMA management has responded and
                   taken action regarding some enterprise-wide workplace issues, MD
                   NPSC management has not launched a definitive plan of action or
                   substantially engaged employees since the 2008 Work Climate
                   Survey. In the months following the survey, the MD NPSC center
                   manager sent several communications to employees assuring them
                   that management was addressing their concerns. However, at the
                   time of our fieldwork, MD NPSC employees were not sure what
                   actions management had implemented. In March 2009, we asked
                   the center manager about those plans and were told that managers
                   and supervisors had met periodically since the survey and were
                   addressing issues. In April 2009, the center manager sent a
                   memorandum to employees informing them how management was
                   addressing their concerns. Senior FEMA managers said that they
                   are aware of low employee morale and other workplace issues at
                   the MD NPSC, and that they plan to survey employees again.

          Recommendations
                   We recommend that the Administrator, Federal Emergency
                   Management Agency:

                   Recommendation #6: Deploy an MD NPSC Work Climate
                   survey steering committee and create Change Teams to identify
                   actions, required resources, and timelines to address immediate
                   priorities.




Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 
 


                                           Page 20
 

                   Recommendation #7: Ensure that MD NPSC managers follow up
                   on staff complaints and notify employees in a timely manner of
                   any actions to address those concerns.

          Management Comments and OIG Analysis

                   FEMA’s Comments to Recommendation #6:

                   FEMA concurred with the recommendation. In its response,
                   FEMA stated that the MD NPSC management team will establish a
                   steering committee and create Change Teams to address those
                   elements of the NPSC survey which were categorized as "in need
                   of immediate attention" or a "serious concern." FEMA set two
                   goals for the committee. First, the committee will seek to educate
                   employees regarding specific improvements already in place as a
                   direct result of the climate survey. Second, for all of the items
                   management has not addressed, the committee will form a
                   multidisciplinary team composed of representatives from all
                   sections of the processing center to address specific concerns,
                   propose solutions, determine feasibility of those solutions, and
                   implement recommended changes. The NPSC Operations Branch
                   Chief will review the committee’s recommendations and approve
                   accordingly. Management will establish a timeline for
                   implementing the changes. It will publish the results, as well as
                   any follow-up, in a memorandum to staff.

                   OIG Analysis:

                   We concur with FEMA’s response. In its action plan, FEMA
                   should update the OIG on the creation of the steering committee
                   and change teams, and its timeline for resolving “unaddressed”
                   items.

                   This recommendation is Resolved – Open.

                   FEMA’s Comments to Recommendation #7:

                   FEMA concurred with the recommendation. In its response,
                   FEMA stated that the MD NPSC management team will follow up
                   on staff complaints identified in the climate survey with an all
                   hands memorandum to address the current status of those elements
                   of the survey which were categorized as "in need of immediate
                   attention" or a "serious concern." Once the work from the steering
                   committee/change teams is complete, a final report will be
                   prepared and sent to all employees detailing specific results and/or
                   actions. The Maryland NPSC management team will ensure that

Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                          Page 21
                   reasonable timelines are established and publicized to employees
                   for dissemination of the results and will develop a process for on­
                   going steering committee involvement. The MD NPSC
                   management team will send interim reports regarding follow-up
                   actions to the NPSC Operations Branch Chief.

                   OIG Analysis:

                   We concur with FEMA’s response. In its action plan, FEMA
                   should apprise the OIG of its progress in following up on issues
                   identified in the climate survey and completing a report detailing
                   actions management has taken or plans to take. FEMA should
                   include copies of the MD NPSC’s interim reports in its updates for
                   the OIG.

                   This recommendation is Resolved – Open.




Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 


                                          Page 22 

Appendix A
Purpose, Scope, and Methodology


                        The Chairman of the House Homeland Security Committee
                        requested that we review complaints he received regarding selected
                        personnel management practices at FEMA’s National Processing
                        Service Center in Hyattsville, MD. Our objective was to determine
                        whether FEMA has improperly (1) conducted employee
                        performance evaluations, (2) terminated employees, and
                        (3) concentrated higher salaried positions at other selected
                        processing centers. We also reviewed other issues involving agent
                        work schedules, supervisory/managerial training, and
                        management-employee relations.

                        We examined data and documents related to the MD NPSC and
                        enterprise-wide disaster assistance operations. We reviewed
                        organizational charts, business cases, position descriptions,
                        performance management guides and materials, employee surveys
                        and staffing assessments, personnel polices and procedures, and
                        operational and training materials, as well as correspondence
                        between officials and MD NPSC staff. We also examined
                        documents and records related to employee EEO complaints.

                        We interviewed 51 current and former staff at the Maryland NPSC,
                        including human service specialists, training and administrative
                        staff, supervisors, and managers. In addition, we interviewed 25
                        staff members at the Texas and Virginia NPSCs. At FEMA
                        headquarters, we interviewed staff in NPSC Operations, the
                        Alternative Dispute and Resolutions Office, and the Equal
                        Employment Opportunity Office. We also observed operations at
                        the Maryland, Texas, and Virginia NPSCs.

                        We conducted our review between October 2008 and March 2009
                        under the authority of the Inspector General Act of 1978, as
                        amended, and according to the Quality Standards for Inspections
                        issued by the President’s Council on Integrity and Efficiency.




     Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center 


                                               Page 23 

Appendix B
Management Comments to the Draft Report


                                                                                    lJS.l
                                                                                    Stinf
                                                                                    Wll-òhingtüii. DC




                                                   NOY 2 4 2009




             MEMORANDUM FOR:                 Carlton i. Mann
                                             Assistant  Inspector General for Inspections
                                             (Wice of liispector General


             FROM:
                                               ~"" ~~ fiA-
                                             David J. Kmilìiian
                                             Director
                                             Oflcc of Policy and Program Analysis



             SUBJECT:                        Comments on OIG Drali Report, Review alSeleçled
                                             !'cr.W/wid I'raclices al MlIJ'ltmil's Na/ioiial Processiiig
                                             Scrl'ic: ('('Iler

             Thank you for the opponuiiity to review and comment on the Offce of Inspector
             General's (OIG's) subject drall audit report. As the Federal Emergency Management
             Agency (FEMA) works toward reHning its programs, the OIG's independent analysis of
             program performance greatly benefits OUl iibility to continuously improve our activities.

             FEMA conells with the drati report's seven recommendations. FEivlA has been working
             diligently to eorreetthe issues identilìcd in your audit. While we will be providing
             corrective ¡ietion plans in our c)O-day response. we provide the following information
             relative to the seven recommendations:

              Recommendation #1: Develop a proccss to identify and track agents' special projects
             and othcr work assignments and gcnenne appropriate production data.

              Response: The Nationall'rocessing Service Cente(s (NPSC) Performance Standards
              Analysis Department continually works to enhance the Individual Performance Report
             (IPR) by including spccial pl'jecl data in     the Pl'duelÎon Key Pcrfonnancc Indicators
              (KPI). The criteria for establishing a pl'duction measurement tbr any "Special Projects"
              requircs that the work activity be of adcquate volume and/or duration to allow sample
             data to be confirmed in order (0 esta(,lis!i a viable measurcment For this reason, it is not
              always possib!ç to include c"ery spcchil project in the productÎon reports.




                                                                                   w\\'w.f\'iiia.~o\'




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                          Page 24
Appendix B
Management Comments to the Draft Report




             Page 2

             Durng the las eighteen months, modifications to the IPR measurements have been
             intruced. In April    2009, the first significant chages were implemented. They include:

             i. A new Occupancy measurement was added to the IPR tht captues the agents' time
                 spent in "redy stte for calls" as well as all "talk time" in order to give employees
                 credit for being in an available mode while assigned to the call center.
             2. FEMA ha reduced the "weight" assigned to the Production KPI frm 40% to 20% to
                 incree focus on the Quality KPI.
 



             Beginng October I, 2009, additional work fuctions, previously identified as special
             projects, were tracked and incorporated into the employee' production data on the IPR
             (e.g. Indexing and Floo Plain mapping). In addition, the development of 
       the Decision.
             baed Routing measurment and the abilty to capture ca that were reviewed and then
             placed on "policy hold" provide for a more complete picture of the employees' daily
             accomplishments on the IPR.

             Recommendation #12: Review its briefing proces for new employees hired puruat              to
             the Staord Act to ensure that FEMA is clearly ariculating differences from the federa
             service and policies related to benefits and retirement, release to nonpay status,
             termination of employment, and quaification for civil service merit hirng.

             Response: FEMA's Disaster Assistace Directorate and Human Capital Division (HCD)
             ar coordinating the need to include more information about Staford Act appointments
             and the differences and similarities with civil service appointments. The NPSC
             Employee Handbook and information posted on the website will be updated to include
             policies related to benefits and retirement, releae to non.pay status, termination of
             employment. and qualifications for civil service merit hiring. The NPSC Employee
             Handbook is posted on the intret and is accesible to all NPSC employees. The NPSCs
             wil also include more emphasis on thes topics in their briefings and workshops to new
             employees.

             R~ommendation #13: Establish a procedure to solicit suggestions from agents,
             managers, and specialists on possible refinements to the individual pedormance review
             and quaity control processes.

             Response: The NPSC's Enterprise Performance Information Management Section which
             is responsible for the Quality Control (Qc) and Individual Pedonnance Report does
             rech out to the NPSCs to solicit feedback and recommendations, but will incree these
             outreah efforts as a result of this recommendation.


             The Enterprise Pedormance Information Management Section has an established
             proèedure that hosts bi-weekly meetings with Applicant Services Section (APS)
             mangers from each NPSC to solicit recommendations for Quality Control changes and
             Individua Performance Reports refinements.




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                         Page 25
 

Appendix B
Management Comments to the Draft Report




           Page 3
 



           In June 2009, approximately 30 Applicant Serices employee from each NPSC
           parcipated in a focus study group to captue suggestions for improvements to the IPR as
           well as QC proceses. Many of        the requested changes require system enanceents and
           are being addressed for feaibilty. Additonal follow-up is planned.
 



           Durng July 2009, the Quality Control Deparent coordinated several focus grup
           sesions to recve additional feedback from Applicant Services employees on the Rental
 

           Rçcification proces. The ¡nfonnation was analyzed and resulted in enterprise
 

           workshops to improve the effectiveness and effciency of Recerfication processing
 


           guidelines.

           The Perfonnance Standards Analysis and Quality Control Deparents plan follow-up
           sureys thughout 2010 and wí1 continue to include opportnities for agents, managers,
           and specialists to provide feeback. They wil publish the infonnation received from
           paricipants of sureys, work shops, training, etc. and make the infonnation available to
           all enterrise staff to ensure planed actions/responses are communicated.

           Recommendation #4: Establish a limit for how many agents may be assigned to one
           superisor, including during peak operations, and ¡fnecar, hire additional supersors
 

           to incree the ratio.

           Response: It is important to note that typically we do not have a need for a greater
           supersor to employee ratio durng most years. We find the need to increase supervisors
           only when we augment our staffng by hiring additional employees in the NPSCs. When
           necsar, the NPSCs may hire additional contract staff, who have contract supersors
           and are managed through the contract's Contracting Offcer's Technical Representative.
           We intend to continue this practice as needed in the future.

           Just prior to the publication of   this reprt, the NPSCs adjusted their employee to
           supesor ratio baseline frm 30: i to 25: i. In addition, each NPSC has hired a number
 

           of CORE supeisors to augment the employee to supersor ratio. Currently, all thee
           NPSCs have a 20: 1 ratio or smaller. In larger disaster, our intent is to limit the
           employee to supervisor ratio to 50 employees. While this may see high, it is only
           durng large disasters and for a very limited time. We wil support the supervsors by
           providing Subject Matter Experts to support overight of the employees. The employee
           to supersor ratio is consistent with call ceter indust standars for the call tyes and
           volume.

           Recommendation #5: Establish an individual training plan for all NPSC manager and
           superisors and ensure that training goals and progress are tracked and recrded.




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                        Page 26
 

Appendix B
Management Comments to the Draft Report




           Page 4

           Response: The NPSC Enterrise Training Deparent has created a comprehensive
           Supesor Development Training curculum given to all Applicant Serices supeisors.
           Additionally, FEMA has developed training course cataogs to support superisors and
             staffto request and recive appropriate professional development training. These
             catalogs list job skils/tak-based credentialing coures, professional development courses
             and leadership training courses. Catalogs ca be used to assist managers and supervsors
             in helping staff to complete their Individual Development Plan (IDP) goals and objectives
             and select the courses they need to complete their goals,

             Course titles offered to supervisors include: Change Management, Coaching and
           Counseling, Communcation, Conflct Management, Decision Making, Diversity,
             Diverity/EEO Policies and Proceures, Goal Settng and Planing, Motivation, Problem
             Solving, Tea Building, Time Management, Creating a Framework for Effective
 

             Ledership and Superision, and Delegation Techniques and Strategies.
 



             Supeisors also attend training outside the NPSCs. For instance, this yea all of the MD­
             NPSC Superisors attended Leding Teas and Groups training at the USDA Graduate
             SchooL.

             Over the past year FEMA's Infomiation Technology Division has worked 10 enhance an
             Enterrise Personnel Database System (E-PDS) to include a method to record, trck and
             reprt trning daia. The system wil include the abilty to enter, track, and reprt lOPs
             which wil include training requirements. E-PDS wil also be able to trck and record
             training as it is completed and report ihis to managers, supervisors, and individuals so
             they ca track their IDP achievements and accomplishments.

             Full development and implementation of the E-PDS for tracking training is expeted to
             be completed and implemented by lune 30, 2010. lOPs wil be established with clealy
             detenined goals and well developed training plans for meeting goals using the FEMA
             Human Capital Pomi 30-05,

             Recommendation #6: Deploy a MD NPSC Work Climate surey steering committee
             and crate Change Teas to identify actions, required resurces, and timelines to address .
             immediat~ priorities.

             Response: The Marland NPSC management team wil establìsh a steering committee
             and crte Change Teas to address those elements of the NPSC surey which were
             categorized as "in nee of      immediate attention" or a "serious concern," The goals of    the
             committee wil be two-fold:

                     . The committee wil seek to educate employees regarding specific improvements
 

                        that have already been implemented as a direct result of    the climate surey.




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                             Page 27
 

Appendix B
Management Comments to the Draft Report




           Page S
 



              . For all of   the items that have not been addressed, the committee wil form a multi­
                  disciplinar team composed of    representatives from all sections of the processing
                  center to address specific concerns, propose solutions, deterine feaibilty of
 

                  those solutions, and implement recmmended changes. The recommendatìons
                  will be made to the NPSC Operations Brach Chief for review and approval prior
                  to implementation.

           A timeline wil be established to implement the changes and the results, as well as any
           follow-up, wil be published in an "all hands" memorandum.

           Recommendation #7: Ensure that MD NPSC managers follow up on staff complaints
           and notify empl()yees in a timely maner of any actions to address those concerns.

           Response: The Marland NPSC management team wil follow up on staff complaints
           identified in the climate survey with an all hands memoradum to address the cutent
           statu of those elements of the survey which were categorized as "in need of immediate
           attention" or a "serous conce." Once the work from the steering committeechange
           teas is complete, a final report wil be prepared and sent to all employees detailng
           specific results and/or actions. The Marland NPSC management tea wil ensure that
           reaonable timelines are established and publicized to employees for dissemination of the
           results and wil develop a process for on-going steering committee involvement. Interm
           report regarding follow-up actions wil be sent to the NPSC Opeations Branch Chief.

           Than you again for the opportity to comment on this draft report and we look forward
           to w()rking with you on other issues as we both strve to improve FEMA.




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                     Page 28
 

Appendix C
National Processing Service Center Workflow




    NPSC Workflow
  Initial Assistance…

                              Uninsured                    FEMA
                            Housing and/or               Inspection
   Registration                                                                       Eligibility Determinations
   Intake                    Other Needs                 Performed
                               Referral

                                                                                 Auto/Manual            Auto/Manual
                                                                                 Determination          Determination
  Non-Registration                                                                 Ineligible              Eligible
    Non-Referral

                                                                                 Letter Sent to          Award &
                                                                                   Applicant          Letter Sent to
    Letter Sent to                                                                                      Applicant
      Applicant



  Subsequent Assistance…
                                           New WP                        Manual
                                          Created at                  Determination        Letter Sent to
                                           Mailroom                       Made               Applicant
               Call to Helpline          (or Helpline)
               or Document
               Sent In



Source: FEMA NPSC Briefing Book, April 2008.




      Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                                     Page 29
Appendix D
FEMA November 28, 2007, Reply to Senator Barbara Mikulski




     Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                               Page 30
Appendix D
FEMA November 28, 2007, Reply to Senator Barbara Mikulski




            The Honorable Barbar Mikuski
            Page 2
            Date NOV 2 8 20
 


            Th employees of       the MD-NPSC ar often asked t work evenings and weekends; and,
            someties ar scheduled for extended hours. MD- SC employees consisently
            demonstte extrordinar professionalism, comp ion and commitment to FEMA's
 

            mission. However, ths lettr from your constituen reveas that maner and
            supesors nee to do a better job of communica' g a wide rage of issues, despite the
            fact tht these topics ar included in regular all-ban and daly tea meeings.

            Employees at all NPSC facilties ar      evaluated ag . st a performance matr which
            includes Individual Performance Report and eval tions by the NPSC Quality Control
            Team. The Quality Control Tea is made up of ex . enee speeialist who ar required
            to attend the full employee development trning uired of Human Service Specialist,
            and who must reertfy anually. Upon completion ftrining, Quality Control
            Specialists aie expeted to perform the saie cae p ocessing assignents as the
            casorker. In addition, the NPSCs have an inte al Quality Contrl process to ensure
            the quaity of     the work completed by Quality Contr i Speialists exceeds the
            performance stadards set for the Human Serice S cialist.


            A quality control compaon gude with explicit' ctions on performance stadars
            and the quality control review proce is posted on e NPSC intret site. An appe
            pros was embeded in the quaity control pro when it began sever yeas ago.
            To ensure that each case and quaity contrl decisio is objectively reviewed, the process
 

            includes an appea panel tht is mae up of Quityf,0ntrl Speialists and Program
            Specialists not associate with the cas. The pael views the case and report bak to
            the employee. The appeal deision comes frm the panel, not the Quality Contrl staff.

            The NPSC function thoughout FEMA wa reor8;ze in 200S, and tls relted in
            resctug the call ceter operatons, in some 10 ions. The rergation and
            subsequent elimintion of some depents an re ocation of others did in fact reduce
            the number of     maageral and anyst positions at . e MD-NPSC; however, many others
 

            were tritioned into positions thatgave them car ladder opportties. No
            employees were teinated beaus of          the reorgani tion. The MD-NPSC wa never
            "down grded" and reains an importt compone t of the NPSC enterse. The former
            NPSC maner referenced in the employees' letter one of several very-well quaified
            employees selected in November 2004, to sta       the rogram Coordition and Planning
 

            (PCP) Brach and work on cataphic plang.
 


            The unusual requirements of Hurcane Kattna an Hurcane Rita produced diferent
            sttegies to addres the nee of the. large, muliifate, impacted disaer population. In
            respns to this lettr, resch disclosed tht NPSlst trained Florida Long Term
 

            Recovery Center (FL TRC) employees to procss d plicate queue applicaions for over
            700,000 cases locked in the syst. Whle the sta gy was succssful in clearng many


                                                                  I

                                                                  I


                                                                  I




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                          Page 31
 

Appendix E
Conditions of Employment - Stafford Act Employee

                                                                                 u.s. l)('p::rmicnt of   Homeland Security
                                                                                 500 C Street S\V
                                                                                 Wnshingtí1n. DC 204ì2




                                                                                 FEMA
                                CONDITIONS OF EMPLOYMENT FOR
                            EMPLOYEES HIRED UNDER THE STAFFORD ACT


             APPOINTMENT TYPES:

                . CORE (Cadre of      On-Call Response Employee) - hired to perform longer term
                    disaster work at a fixed location with a regular tour of duty.

                . DAE (Disaster Assistance Employee) - hired for initial surge staffg required in
                   disasters with an intermittent tour of duty. Employees surge to disaster sites from
                   their duty station, which are their homes, and are placed on per diem for the
                   duration of their surge assignment.


             NATURE m' APPOINTMENT:

                . I understand that this is a temporar civil service excepted service position that
                   does not confer eligibilty or priority consideration for permanent appointment. I
                   may be terminated at any time, with cause (e.g. poor performance or misconduct)
                   or without cause (e.g. downsizing of   workforce, change in program direction or
                   operational needs). My appointment wil neither help nor hinder my chances for
                   permanent appointment.
                . I understand that my appointment is subject to successful completion and
                   processing of essential securty investigation forms, cooperation with the
                   investigation and a favorable determination on my suitabilty for Federal
                   employment.
                . I wil conduct myself at all times in a professional maner, preserve the public
                   trust and adhere to FEMNDHS rules and regulations.
                . I may be required to work long hours under stressful and unfavorable conditions.
                . I understand that I may be assigned to perform my disaster-related duty,
                     irrespective of my position description, based on the needs of the operational
                     situation. (CORE)
                .. I may be released from an assignment at any time and with little or no notice
                     based on the needs of the operation. In addition, I understand that I may be
                     placed in a non-duty, no-pay status at anytime (e.g. due to downizing ofthe
                     workforce or change in program direction) and may be terminated at any time for
                     cause (e.g. poor performance or misconduct) and that I am not subject to any
                     protection afforded by reduction-in-force provisions, fe-employment rights or
                     adverse action procedures established under any statutory or regulatory provision.
                     (CORE & DAE)




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                     Page 32
Appendix E
Conditions of Employment - Stafford Act Employee




                . My work schedule and temporary geographical assignent may be changed based
 

                       on the mission needs of   the Agency.
                . I must be reay to deploy wherever the Agency needs my servces within 24 -48
 

                       hour of notification.
                . I understand that I wil not receive any benefits such as health or life insurance; I
 

                     wil however contrbute to the social securty system. (DAE only, No Benefits)
                · I understand that my appointment will end on the Not to Exceed (N) date of
                       my appointment, unless it is extended based on the needs of   the Agency.


             CONDITIONS OF APPOINTMENT;

                . Use of electronic funds transfer is mandatory for salar payments and travel
 

                   reimbursements.
                · My compensation, progression and retention will be based on acceptable
                   performance and conduct, professional ability and availability to deploy. (DAE
                   only)
                . I must be eligible for and able to maintain a governent issued travel card and I
 

                       wil abide by the ters and conditions established by the card provider and
 

                    FEMA. Violations (e.g. delinquency, personal use of card) will result in
                    appropriate disciplinary action, up to and including termination of employment.
                . I will travel in the most expeditious and cost effective maner, using the Agency's
                       Travel Agent to make all my travel arangements.
                . If I am authorized to use a motor vehicle for offcial business, I must comply with
 

                       all applicable laws, regulations and policies relating to offcial motor vehicle
                       usage.
                · Upon arving at a temporar duty station location, I must check in accordance
                       with guidance set in place by my cade manager whether it be by phone or online
                       and follow instrctions. I am also required to check out and update my
                       deployment status with the Automated Deployment Database.
                · If! am a retire Federal civil servant, my pay from FEMA may be subject to
 

                       offset.

            REQUIRED NOTIFICATION OF A V AIABLITY:

                . If  not in a pay statu, I must certify my availabilty for deployment at least once
                    every 30 days. (DAE only)
                · I must be available to be in deployment status not less than 60 days a year. I
                       understand tht my availabilty for deployment does not guarantee tht I wil be
 

                    deployed. (DAE only)
                . Because of extraordinar circumstances, I may be called to work by the Agency
 

                    even when I have informed the Agency that I am unavailable. I wil become
                    available within two weeks of receiving the call unless I have medical or other
                    appropriate documentation that justifies iny unavailabilty. (DAE only)




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                           Page 33
 

Appendix E
Conditions of Employment - Stafford Act Employee




                 . The National Processing Service Centers (NSC) require highly trained and
 

                     skiled stato meet FEMA's mission of         providing disaster assistace to
                     individuals and families afected by major disasters. Al employees classified as
                     Human Services Specialist are required to demonstrte core job competencies by
                     completing and passing a Registration Intake course with a score of 85% or
                     higher. Following the completion and passing ofthe Registration Intae course,
 

                     these same employees wil be required to adere by the tenus and conditions
                     stated in the "Conditions of Continued Employment Individuals and Households
                     Program (ll) Training Requirements" document.
 





             I CERTIFY THAT I HAVE READ AN UNDERSTAND THE TERMS AND
             CONDITION OF MY EMPLOYMENT WITH FEMA AS A STAFFORD ACT
             EMPLOYEE. I ALSO UNDERSTAND THAT FAILURE TO MEET AND
             MANTAIN THE CONDITIONS OF EMPLOYMENT AT AN TIME COULD
             RESULT IN TERMNATION OF MY EMPLOYMENT.


             Printed Name of    Employee                             Last Four digits of SSN


             Signature of Employee                                   Date




     Review of Selected Personnel Practices at FEMA's Maryland National Processing Service Center

                                                           Page 34
 

Appendix F
Major Contributors to This Report


                        William McCarron, Chief Inspector
                        Jim O’Keefe, Senior Inspector
                        Gina Davis, Inspector




     Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                               Page 35
Appendix G
Report Distribution


                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff for Operations
                        Chief of Staff for Policy
                        Deputy Chiefs of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        Assistant Secretary for Office of Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Director, Departmental GAO/OIG Liaison Office
                        Audit Liaison, Federal Emergency Management Agency

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




     Review of Selected Personnel Practices at FEMA’s Maryland National Processing Service Center

                                               Page 36
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
